fc-

1

c
No..

!

in ..

■ft'GINAL

IN THE

FILED

SUPREME COURT OF THE UNITED STATES p£g Q g 2Q21
gL^FC^UE^

WAEL LASHEEN PETITIONER
vs
JILL LASHEEN RESPONDENT

ON PETITION FOR AWRIT OF CERTIORARI TO
OHIO SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

WAEL LASHEEN PRO SE
PO BOX 202555
CLEVELAND, OHIO 44120
TEL: 216-414-8759
EMAIL: WAELLASHEENl@PROTONMAIL.COM

Hta t» 2u2i

I»r8 1 ^ rhi}\

sr.BglM°/cT5uRT^

J“ rfi I M Vii''!

vsasssms;
a

QUESTIONS PRESENTED

1-Can a case proceed if the petitioner argues that the administrative judge,
appointing judges to the petitioner’s case, lacked jurisdiction to do so without
having his petition of lack of Jurisdiction addressed?

2-Did the Ohio Supreme Court err when they declared that Administrative Judges
are not subject to disqualification under Ohio Revised Code (O.R.C). 2701.03?
Therefore is the O.R.C. 2701.03, as interpreted by the Ohio Supreme Court,
unconstitutional?

3-Was the petitioner given the opportunity to be heard by the Ohio Supreme Court
on every question involving his rights and interests, in their September 11th, 2020
decision?

a

-iLIST OF PARTIES
Attorney for Respondent
BARBARA K. ROMAN (0014607)
Meyers, Roman, Friedberg & Lewis
28601 Chagrin Boulevard, Suite 600
Cleveland, Ohio 44122
Tel:

(216) 831-0042

Fax:

(216) 831-0542

Email: broman@meyersroman.com
Petitioner
WAEL LASHEEN PRO SE
PO BOX 202555
CLEVELAND, OHIO 44120
TEL: 216-414-8759
EMAIL: WAELLASHEENl@PROTONMAIL.COM

-iiRELATED CASES
“In re Disqualification of Jones and Celebrezze,

Ohio St.3d___, 2020-

Ohio-4954.”- designated for publication.
JURISDICTION
The date on which the highest state court decided my case was 09/11/2020. A
copy of that decision appears at Appendix

A

No rehearing is permitted
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).
OPINIONS BELOW
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and
[X ] has been designated for publication but is not yet reported;

-iii-

INDEX OF APPENDIXES

APPENEDIX A 09/11/2020 OSC Decision That Is the Subject of This Writ
APPENEDIX B Prior Affidavit of Disqualification
APPENEDIX C Not Used
APPENEDIX D Ohio Revised Code (O.R.C). 2701.03
APPENEDIX E Supreme Court of Ohio Rules of Practice 21.02(e)
APPENEDIX F Not Used
APPENEDIX G Affidavit of Disqualification Related to the Decision Subject
of This Writ
APPENEDIX H Court’s Case Information with Administrative Judge Acting
as the Case’s Judge (Court’s Website)
APPENEDIX I 28 U.S. Code § 455

-ivCONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Ohio Revised Code (O.R.C). 2701.03 (Appendix D)
“(A) If a judge of a municipal or county court allegedly is interested in a
proceeding pending before the judge, allegedly is related to or has a bias or
prejudice for or against a party to a proceeding pending before the judge or to
a party's counsel, or allegedly otherwise is disqualified to preside in a
proceeding....”

Supreme Court of Ohio Rules of Practice. 21.02(E) (Appendix E)
“(E) Motion for Reconsideration
“No motion for reconsideration may be filed and the Clerk of the Supreme
Court shall refuse to file a motion for reconsideration regarding an affidavit
of disqualification. Ohio. S.Ct.Prac.R. 21.02”

28 U.S. Code § 455 - Disqualification of justice, judge, or magistrate
judge (Appendix I)
“(a)Any justice, judge, or magistrate judge of the United States shall
disqualify himself in any proceeding in which his impartiality might
reasonably be questioned..... ”
The U. S. Constitution Fifth and Fourteenth Amendments provides
that no person shall be deprived of life, liberty, or property, without Due
Process of Law nor deny any person within its jurisdiction the equal
protection of the laws and that no state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States

-V-

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

-Baldwin v. Hale, 68 U.S. (1 Wall.) 223, 233 (1863)

4

- Basso v. Utah Power & Light Co., 495 F 2d. 906, 910 (10th Cir. 1974)

2

- In re Disqualification of Morrissey, 77 Ohio St. 3d 1252,
674 N.E.2d 360 (1996).

3

- Joyce v. United States, 474 F.2d 215 (3d Cir. 1973)

2

- Main v Thiboutot 100. S. Ct 2501 (1980)

2

-Mathews v. Eldridge, 424 U.S. 319, 333 (1976)

4

''i

1
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari is issued to review the
judgment below.
STATEMENT OF THE CASE
The petitioner is involved in a divorce case. After repeated irregularities the
petitioner submitted an affidavit of disqualification (Appendix B and Appendix C) to
the Ohio Supreme Court (OSC). Under Ohio State law, affidavits of disqualification
are submitted directly to the OSC, ORC 2701.03 (Appendix D). The decisions of the
OSC are final, Supreme Court of Ohio Rules of Practice. 21.02(E) (Appendix E). The
presiding Judge passed an order to halt all further action on the case and
consequently recused themselves. Before the OSC issues a Judgment (Appendix F),
the Administrative Judge reassigned the case to a New Judge. Due to the untimely
New Judge reassignment, various other issues, weary of underlying prejudice, and
given the nature of the case, the petitioner submitted a second affidavit of
disqualification (Appendix G) to disqualify the Administrative Judge and disqualify
the New Judge (as a void assignment). The next morning on September 11th, 2020
the OSC rejected the petition (Appendix A), which is the object of this Writ.
1-Can a case proceed if the petitioner argues that the appointing
administrative judge, appointing judges to cases, lacked jurisdiction to do

2
so without having his petition for lack of jurisdiction addressed?
The petitioner argued in his affidavit of disqualification (Appendix G) that the
Administrative Judge lacked Jurisdiction to make a New Judge appointment to the
case at the time it was made. The OSC did not address the question of Jurisdiction
in its judgment (Appendix A), which is the object of this writ.
If a court has no Jurisdiction a judgment entered adjudicate nothing.
There is no discretion to ignore lack of jurisdiction. Joyce v U.S. 474 2d 215; The law
provides that once State and Federal jurisdiction have been challenged, it must be
proven. Main u Thiboutot 100. S. Ct 2501 (1980); “Jurisdiction can be challenged at
any time” and "jurisdiction, once challenged, cannot be assumed and must be
decided". Basso v Utah Power and Light Co. 495 F.2d 906,910.
2-Did the Ohio Supreme Court err when they declared that administrative
judges are not subject to disqualification under Ohio Revised Code
(O.R.C). 2701.03? Therefore is the O.R.C. 2701.03, as interpreted by the Ohio
Supreme Court, unconstitutional?
In their Judgment the OSC declared “Further, Judge Celebrezze is not assigned to
the underlying divorce case, and O.R.C. 2701.03 does not authorize a litigant to
disqualify a court’s administrative judge from performing his or her duties. ”
(Appendix A).

3
An administrative Judge, in a common pleas court, wields great influence over court
staff, hiring, firing, day to day operations, duties delegation, policy, finances, in
addition to supervisory role over other Judges, judge assignments, etc.
We argue that by the mere act of assigning a Judge, an Administrative Judge is
involved in the case. In fact, in emergencies the Administrative Judge might have to
chair the court (Appendix H), as they should. An Administrative Judge may
influence the case through court staff, family evaluation services, court reporters,
etc. all within his/her sphere of influence. Indeed, the OSC recognized the gravity of
an Administrative officer’s position, and the difficulty of maintaining the
appearance of partiality, and ruled to disqualify all county Judges when the
defendant's former counsel subsequently became the county court administrator, a
role far less influential than our Administrative Judge. In re Disqualification of
Morrissey, 77 Ohio St. 3d 1252, 674 N.E.2d 360(1996).
We disagree with the OSC interpretation that ORC 2701.03 (Appendix D) “does not
authorize a litigant to disqualify a court’s administrative judge from performing his
or her duties”. ORC 2701.03(A) states “(A) If a judge

is disqualified to preside in

a proceeding pending before the court. ...” We would argue that “preside in” means
to “exercise guidance, direction, or control (Merriam Webster Dictionary)”, all
actions exercised or potentially exercised by an Administrative Judge. Only the
term “to preside over” is used exclusively to mean “to be a chairperson” in any
dictionary. As such an Administrative Judge would qualify for disqualification

4
under ORC 2701.03. Furthermore nothing specifically in the language of ORC
2701.03 precludes a litigant from disqualifying a court’s administrative judge.
The OSC holds that ORC 2701.03 (Appendix D) does not authorize a litigant to
disqualify a court’s Administrative Judge for any reason, regardless of appearance
of bias or actual bias; setting a dangerous precedent. This is at odds with 28 U.S.
Code § 455 - Disqualification of justice, judge, or magistrate judge (Appendix I)
which makes no such exception; and as such, ORC 2701.03, is unconstitutional.
If the Ohio Supreme Court Opinion stands it will set a dangerous precedent. For
example, if an Administrative Judge has a child, who is a litigant in the same court,
according to the OSC, ORC 2701.03 does not allow for that or any Judge’s
disqualification, going against OSC precedent itself.
3-Was the petitioner given the opportunity to be heard by the Ohio
Supreme Court on every question involving his rights and interests, in
their September 11th, 2020 decision?
The petitioner submitted to the OSC the following in his petition for consideration
(Appendix G): A) Jurisdiction question B) Question of Misconduct by the
Administrative Judge (Judge Celebrezze).
SCOTUS deemed repeatedly that “Parties whose rights are to be affected are
entitled to be heard.” Mathews v. Eldridge, 424 U.S. 319, 333 (1976). Baldwin u.
Hale, 68 U.S. (1 Wall.) 223, 233 (1863). In addition it is a violation of the Fifth &
Fourteenth Amendment, and constitutional guarantee of due process that both

5
questions were ignored went unanswered or ruled on, in the 09/11/2020 OSC
decision (Appendix A).
CONCLUSION
The petition for a writ of certiorari should be granted for the reason outlined
above.
Respectfully submitted,
Wael Lasheen (S)

Date:02/08/2021
No.

